        Postal Service Management of
          Closed Post Office Boxes

                       Audit Report




                                      June 18, 2013

Report Number DP-AR-13-007
                                                                          June 18, 2013

                                                 Postal Service Management of Closed
                                                                    Post Office Boxes

                                                         Report Number DP-AR-13-007



BACKGROUND:
Post Office Box™ (box) service is an             Loss of revenue due to units with no
optional delivery service that consists of        available boxes for rent but with
delivery to uniquely addressable boxes            closed or broken boxes.
of various sizes located at U.S. Postal          Loss of revenue due to physically
Service facilities. Nationwide, the Postal        available boxes not recorded in the
Service manages more than 21 million              automated systems, thereby
boxes, which accounted for $836 million           preventing them from being rented.
in fee revenue in fiscal year 2012.              Non-compliance with box billing
                                                  procedures.
A customer rents a box by prepaying the
box rent fee for a 3-, 6- or 12-month        Also, the Postal Service does not
interval at a window unit, an Automated      require managers to periodically review
Postal Center or online. After that term     box national reports to identify potential
has expired, the customer can renew          risks. As a result, we calculated
box service for an additional term by        $3 million of annual revenue loss for
prepaying in the ways previously             units showing no boxes available for
described. When a customer does not          rent but with closed, broken, or
renew a box, the Postal Service places       unrecorded physical boxes on site,
the box into a closed status and then        based on data in the Web Box Activity
changes the lock or combination before       Tracking System. Additionally, we
renting the box to a new customer. As of     identified $2.36 million of annual
April 2012, more than 1 million boxes        revenue at risk for closed boxes with
nationwide required a lock change.           customer access not blocked.

Our objective was to determine whether       WHAT THE OIG RECOMMENDED:
the Postal Service was effectively using     We recommended management
national box data to manage closed           develop additional data analysis tools
boxes.                                       and provide them directly to district
                                             management to improve Post Office Box
WHAT THE OIG FOUND:                          oversight. We also recommended
The Postal Service did not effectively       district management follow up with all
use national Post Office Box data to         units that have no available boxes to
manage closed boxes. Specifically, the       ensure closed boxes are available for
current management reports do not            rent and all physical boxes are
evaluate units and identify potential        documented and available for rent.
risks, such as:
                                             Link to review the entire report
June 18, 2013

MEMORANDUM FOR:            EDWARD F. PHELAN, JR.
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                           KELLY M. SIGMON
                           VICE PRESIDENT, CHANNEL ACCESS

                           JAMES P. COCHRANE
                           VICE PRESIDENT, PRODUCT INFORMATION




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Postal Service Management of Closed Post
                           Office Boxes (Report Number DP-AR-13-007)

This report presents the results of our audit of the U.S. Postal Service’s Management of
Closed Post Office™ Boxes (Project Number 12BG023FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Randy Miskanic
    Corporate Audit and Response Management
Postal Service Management of Closed Post Office Boxes                                                              DP-AR-13-007



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Post Office Box Data Not Used Effectively ...................................................................... 2

   Closed, Broken, and Unrecorded Post Office Boxes ................................................... 3

   Unblocked Closed Post Office Boxes .......................................................................... 3

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Monetary and Other Impacts..................................................................... 13

Appendix C: Statistical Sample and Projections for Review of Unblocked Post Office
 Boxes ......................................................................................................................... 15

Appendix D: Management's Comments ........................................................................ 17
Postal Service Management of Closed Post Office Boxes                                                  DP-AR-13-007



Introduction

This report presents the results of our audit of the U.S. Postal Service’s management of
closed Post Office™ (PO) boxes (Project Number 12BG023FF000). The objective of our
audit was to determine whether the Postal Service was effectively using national
Post Office Box data to manage closed PO boxes. This self-initiated audit addresses
financial and operational risk. See Appendix A for additional information about this audit.

PO box service is an optional delivery service that consists of delivery to uniquely
addressable PO boxes of various sizes at Postal Service facilities.1 A customer rents a
box by pre-paying the box rent fee for a 3-, 6- or 12-month interval at a window unit, an
Automated Postal Center or online. After that term expires, the customer can renew box
service for an additional term by pre-paying in one of the ways previously described.
The Postal Service manages more than 21 million PO boxes nationwide, which
accounted for $836 million in revenue in fiscal year (FY) 2012. When a customer does
not renew a PO box, the Postal Service places the box into ‘closed’ status and changes
the lock or combination on the box before renting it to a new customer. As of
April 27, 2012, more than 1 million PO boxes nationwide required a lock or combination
change. The Web Box Activity Tracking System (WebBATS) is a web-based application
that allows post offices to manage their PO boxes. It allows the user to access the
facility's box-section database to perform PO Box tasks,2 as well as run reports that
display unit PO box data.

Conclusion

The Postal Service did not effectively use national PO box data to manage closed
PO boxes. Specifically, the current Postal Service Enterprise Data Warehouse (EDW)3
PO box management reports do not evaluate units and identify potential PO box risks,
such as:
 Loss of revenue due to units with no available boxes for rent but with closed or
   broken boxes that could be made available for rent.
 Loss of revenue due to physically available PO boxes not recorded in WebBATS
   and that cannot be rented.
 Non-compliance with PO box billing procedures.

Also, the Postal Service does not have a process established to require management to
review national PO box reports periodically to identify potential PO box risks, such as
those previously described. As a result, we calculated $3 million of annual revenue loss


1
  PO box service is provided at post offices and contract postal units.
2
  These tasks include renting a PO box, updating or deleting a PO box, changing the status of a PO box, managing
customer account information, and printing fee notifications.
3
  The EDW provides a single repository for managing the Postal Service’s corporate data assets. The EDW provides
a common source of accurate corporate data across organizations to a wide variety of users. Users can report on and
manipulate data in a variety of ways both within and across functions for deeper analysis, which can lead to additional
revenue, reduced costs, and improved business practices.
                                                           1
Postal Service Management of Closed Post Office Boxes                                                DP-AR-13-007



for units showing no PO boxes available for rent in WebBATS but with closed, broken,
or unrecorded physical PO boxes on site.

Additionally, we visited 26 PO box sites to conduct reviews of closed Post Office boxes
requiring lock changes and found the Postal Service did not block access to and/or
were delivering mail to 27 percent of the boxes reviewed. We identified $2.36 million of
annual revenue at risk for closed PO boxes that were not blocked.

Post Office Box Data Not Used Effectively

The Postal Service does not effectively use PO box data to evaluate units and identify
potential risks, such as not maximizing PO box revenue, non-compliance with PO box
billing procedures, and delivering mail to closed boxes. Although the Postal Service
does have PO box data analysis management reports and national PO box reports, the
Postal Service is not required to use the products. Additionally, the data presented
could be enhanced for better usability and to provide users with greater insight into PO
box operations. Such data would include:

   Status (open, closed, etc.) of the boxes.
   Date of the status.
   Ratio of available to closed boxes.
   Units that did not generate fee payment labels or letter notification for the month.4
   Units that do not run the Delinquent Report.5
   PO box up-times.6

The Postal Service captures national PO box data that are generated in reports on the
PO box Blue Pages;7 however, most of the WebBATS coordinators and managers we
interviewed stated they do not review these reports unless instructed to do so by
headquarters. Currently, no criteria exist detailing how these reports should be used by
the field; rather, the reports are just included as a resource that management is not
required to use. Headquarters management stated generally they do not mandate the
use of reports by the field.

The Postal Service could increase revenue and improve customer service by using a
more robust data analysis tool that identifies potential PO box service risks at units
nationwide. By closely examining available information, we identified risks associated
with closed, broken, and unrecorded PO boxes; and with delivering mail to unblocked,
closed PO boxes.


4                                                            st
  Units must print fee payment labels from WebBATS on the 1 of the month for all PO box rents set to expire that
month. The unit then attaches them to fee payment notifications and places them in the appropriate customer PO
                 th
box. On the 20 of the same month, units must print fee payment reminder letters from WebBATS for customers who
still have not renewed their boxes and place them into customer PO boxes.
5
  This is a WebBATS report that shows all PO boxes that have delinquent fee payments. Units are required to run this
report at the beginning of a month and block customer access to delinquent boxes.
6
  Each unit must have a scheduled PO box ‘up-time’ for box mail to be finalized and available to customers.
7
  The Post Office Box Blue Pages is an internal webpage Postal Service employees can access to obtain and review
PO box resources.


                                                         2
Postal Service Management of Closed Post Office Boxes                                                 DP-AR-13-007



Closed, Broken, and Unrecorded Post Office Boxes

The Postal Service is not managing PO boxes to maximize revenue. Specifically,
400 units nationwide do not have PO boxes available for rent but have almost 23,000
closed or broken8 PO boxes. Additionally, using the results from the annual PO box
reviews9 conducted by each unit, we identified 95 units that have no available boxes for
rent in WebBATS but have almost 20,000 physical PO boxes available that were not
recorded in WebBATS. For a unit to be able to rent a PO box, it must record the box in
WebBATS.10

Management stated that they used to regularly review a WebBATS report titled
Facilities With Broken or Closed Boxes And No Available Boxes but other priorities have
taken precedent. Management added that they will notify those units to change the
locks on their closed boxes and make the boxes available for rent. According to the
annual PO box review instructions11 headquarters sent to the units, if the physical count
of PO boxes does not match the number reported in WebBATS, units must contact the
Address Management System12 (AMS) group to ensure that PO box totals are correct.
However, no policy regarding management oversight exists to ensure this is completed.
These boxes could have produced $3 million in additional annual revenue if rented. See
Appendix B for monetary impact calculations.

Unblocked Closed Post Office Boxes

Postal Service units are delivering mail to closed PO boxes. Specifically, units do not
always block customer access and deliver mail to both blocked and unblocked closed
PO boxes. After a box has been closed for 11 days, units are supposed to stop
delivering mail to the box and return mail to the sender. During FYs 2008 and 2009, the
U.S. Postal Service Office of Inspector General (OIG) found these same exceptions at
32 sites.13 As part of this audit, we revisited 26 of those 32 units14 and reviewed closed
PO boxes requiring a lock change to determine whether the exceptions remained. Of
the 1,966 closed PO boxes reviewed at these sites, 531 had exceptions. Specifically,
144 were not blocked but also did not contain mail when we visited the unit; 260 were


8
  A broken PO box cannot be rented because it is listed as broken in WebBATS. Some broken boxes can be repaired
and rerented.
9
  See Appendix A.
10
   See Appendix A.
11
   These instructions were included as a separate tab in the Microsoft Excel spreadsheet that units used to complete
the annual PO box review.
12
   The national Postal Service database of every delivery address with its associated ZIP Code, ZIP+4 code, and
city/state name that serves as the foundation of data for all address correction tools.
13
   Fiscal Year 2008 Financial Installation Audits – Post Offices, Stations, and Branches (Report
Number FF-AR-09-055, dated December 26, 2008). Units did not close or block PO boxes for customers who did not
pay their fees — this exception was identified at 19 of 105 sites reviewed; Fiscal Year 2009 Financial Installation
Audits – Post Offices, Stations, and Branches (Report Number FF-AR-10-045, dated December 14, 2009). Units did
not close or block PO boxes for customers who did not pay their fees — this exception was identified at 13 of 105
sites reviewed.
14
   The OIG did not revisit all 32 sites because four of the sites had no closed boxes as of July 2012, and it was not
cost-effective to visit the other two.


                                                          3
Postal Service Management of Closed Post Office Boxes                        DP-AR-13-007



not blocked but did contain mail; and 127 were blocked but were still receiving mail. See
Table 1 for a breakdown of PO box exceptions by unit.




                                                  4
            Postal Service Management of Closed Post Office Boxes                                                        DP-AR-13-007



                               Table 1 – Summary of Closed and Do-Not-Issue PO Boxes Reviewed During Site Visits
                                                                                    Number Of        Number Of
                                                                                    Boxes Not        Boxes Not     Number Of       Total Number
                                                                    Number Of      Blocked And      Blocked And Boxes Blocked        Of Boxes
                                                                    PO Boxes      Not Containing     Containing   But Containing       With
                            Site Name                               Reviewed           Mail             Mail           Mail         Exceptions
                                                                            90                 89               1              0              90
                                                                           100                 15              10             54              79
                                                                            93                 10              47              1              58
                                                                           314                  6              48              4              58
                                                                            87                  5              41              0              46
                                                                            61                  1              13             26              40
                                                                            44                  3              23              4              30
                                                                            30                  0               3             21              24
                                                                           317                  2              13              3              18
                                                                            50                  2              13              1              16
                                                                           229                  1              10              1              12
                                                                            12                  2              10              0              12
                                                                            14                  3               7              0              10
                                                                            68                  0               0              7               7
                                                                           164                  0               5              2               7
                                                                            28                  0               6              0               6
                                                                              8                 1               3              2               6
                                                                              5                 0               3              0               3
                                                                              8                 1               1              0               2
                                                                           174                  1               0              1               2
                                                                            24                  1               1              0               2
                                                                              7                 0               2              0               2
                                                                            25                  1               0              0               1
                                                                              1                 0               0              0               0
                                                                            10                  0               0              0               0
                                                                              3                 0               0              0               0
 Total                                                                   1,966               144              260            127            531
Source: OIG reviews of closed PO boxes conducted at each site.




                                                                                  5
Postal Service Management of Closed Post Office Boxes                         DP-AR-13-007



Although, the OIG had identified these exceptions at these units in prior reports, nearly
all of the sites continue to have these exceptions, with roughly 27 percent of the closed
boxes reviewed either not blocked and/or receiving mail.

Generally, PO box clerks were aware of the requirements but stated they did not correct
these errors because other duties took priority. Management stated that it costs roughly
$13-$15 to change out a PO box lock that would prevent customers from accessing
their boxes. They did not want to spend more than $13 million to change out locks on all
the closed boxes nationwide. However, WebBATS and AMS functionality could be
enhanced to provide useful information to Postal Service management, such as
identifying closed PO boxes that receive mail after they have been closed for a
reasonable length of time.

PO boxes that are not blocked are at risk for loss of revenue because customers can
still access their boxes and receive PO box service without having to pay the fee. About
26,000 units have more than 1 million closed status PO boxes nationwide. Based on our
statistical analysis, we estimate the Postal Service has $2.36 million of annual revenue
at risk attributed to unblocked closed PO boxes nationwide. See Appendix B for other
impact and Appendix C for our statistical analysis and other impact calculations.

Recommendations

We recommend the vice president, Delivery and Post Office Operations, in conjunction
with the vice president, Channel Access:

1. Develop additional data analysis tools to enhance the current Post Office Box
   management tools and provide these tools and analysis directly to district
   management via push reports sent out periodically.

2. Direct district management to follow up on units with no available Post Office boxes
   to ensure that closed boxes are made available for rent and physical Post Office
   boxes not in the Web Box Activity Tracking System are recorded and made available
   for rent, unless it is determined that no new boxes are to be rented from the unit.

We recommend the vice president, Product Information, in coordination with the vice
president, Delivery and Post Office Operations:

3. Look at the feasibility of developing an automated report process to notify unit
   management when mail is sorted to closed Post Office boxes after the box has been
   closed a reasonable length of time.

Management’s Comments

Management disagreed with the reported findings, recommendations, and monetary
impact. However, they did state they will review the 26 units to ensure compliance with
Postal Service policies and procedures.


                                                  6
Postal Service Management of Closed Post Office Boxes                          DP-AR-13-007




Management further stated the audit was based on a judgmental, non-representative
sampling method, deemed inappropriate to determine or quantify any monetary
findings. Furthermore, management stated that it was reasonable to assume that, if the
methodology was deemed inappropriate, it would extend throughout the entire audit.
Management concluded the integrity and credibility of the audit was compromised.

Additionally, management provided the following specific comments to information
contained in the report:

   Management believes that our statement “more than 1 million PO boxes nationwide
    required a lock or combination change” is misleading. Management stated they
    manage lock changes incrementally, based on customer demand, thereby mitigating
    Postal Service labor and equipment costs.

   Management believes the reported estimate of $3 million in annual revenue loss is
    misleading and incorrect. Management stated that it appears we based our
    methodology on the assumption that every PO box not currently in operational status
    represents revenue. They added that customer demand initiates appropriate Postal
    Service action to meet the need.

   Management disagreed with the methodology used to calculate the $2.36 million of
    revenue at risk. They also surveyed employees at the sites visited. Employees did
    not understand why there were exceptions, as the OIG did not communicate any
    findings to them.

   Management disagreed with our assertion that they do not effectively use data to
    identify units not maximizing revenue or not complying with billing and mail delivery
    procedures. Management contends that the judgmental, non-representative
    sampling methodology used renders all of our conclusions invalid.

See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG does not consider management’s comments responsive to the
recommendations. Since management does not plan to take corrective action, the
issues identified in the report will continue to exist.

Management concluded that the sampling methodology used in the Unblocked Closed
Post Office Boxes finding was inappropriate based on their belief that the sites were
judgmentally selected. During the audit, we obtained management’s agreement with our
methodology. We agreed that the OIG would visit and evaluate units where there was
previously found non-compliance with PO box procedures. These units had been
randomly selected during OIG financial compliance audits. We believe that selecting
units that had already been audited and corrective actions taken would provide the



                                                  7
Postal Service Management of Closed Post Office Boxes                           DP-AR-13-007



basis for a very conservative estimate of the current state of unit compliance with PO
box controls.

During our initial exit meeting, management stated we had misinterpreted their initial
concurrence with our methodology and did not agree that this was a valid methodology.
Further, they did not believe there was currently a nationwide compliance problem
regarding PO box procedures. Consequently, we re-analyzed the results using a valid
statistical methodology and presented those results to management in a subsequent
meeting (see Appendix C for the statistical evaluation). Management still did not agree
there was a nationwide problem with unblocked closed PO boxes.

Additionally, management is incorrect in their belief that the 'inappropriate' methodology
makes the conclusions in the report unreliable. Our conclusions regarding the effective
use of PO box data and management not maximizing PO box revenue were reached
independently from the sampling methodology. The information presented was derived
directly from the Postal Service’s own management reports. If management does not
believe that data is correct, they should take actions to correct their data.

Regarding management-specific comments to information in the report:

   Management believes the statement that more than 1 million PO boxes nationwide
    required a lock or combination change is misleading and assumptive. Management
    added that the Postal Service manages lock changes within the system
    incrementally and in conjunction with customer demand, thus mitigating costs
    associated with labor and equipment. While the OIG agrees the Postal Service
    should mitigate costs by not changing locks on closed boxes when there is no
    customer demand, we do not agree that the Postal Service should have 20,000 PO
    boxes nationwide that require a lock change at units where there are no available
    boxes for rent. The 1 million boxes identified are included in the report to provide the
    reader with a perspective on the size of the aspect of the business we were
    discussing.

   We calculated $3 million of annual revenue loss for units showing in WebBATS with
    no PO boxes available for rent but with closed, broken or unrecorded physical PO
    boxes on site. Management stated that this was misleading and the alleged revenue
    loss appears to be based on the assumption that every PO box not currently in
    operational status represents revenue. The monetary impact calculation takes into
    account a 63 percent nationwide rental rate for PO boxes and bases the revenue
    loss on that rental rate. See Appendix B for monetary impact calculations.

   We visited 26 PO box sites to review closed PO boxes requiring lock changes and
    found that the Postal Service did not block access to and/or were delivering mail to
    27 percent of the boxes reviewed. We identified $2.36 million of annual revenue at
    risk for closed PO boxes that were not blocked. Management stated, through their
    own survey, that findings were not communicated with the employees. They added
    that some boxes may have had mail in them during the 10-day grace period. The



                                                  8
Postal Service Management of Closed Post Office Boxes                       DP-AR-13-007



   OIG included only closed status boxes that required lock changes in the review;
   consequently, the 10-day grace period had already expired. Additionally, the OIG
   obtained causes for each exception identified from the PO box clerks or responsible
   managers. Consequently, management's assertion that units were not informed of
   all deficiencies noted is incorrect.

Management stated that a judgmental, non-representative sampling method abdicated
our conclusions, including not effectively using PO box data to evaluate units and
identify potential risks. This finding was independent of the sampling methodology and
based on data from the Postal Service’s national PO box reports and the absence of
procedures to use them.




                                                  9
Postal Service Management of Closed Post Office Boxes                                                 DP-AR-13-007



                                 Appendix A: Additional Information

Background

PO box service is an optional service that consists of delivery to uniquely addressable
PO boxes of various sizes that the Postal Service rents to customers for a fee. These
boxes are at Postal Service facilities, subject to both customer demand and the Postal
Service’s ability to provide them. The Postal Service assigns PO boxes to fee groups
and classifies them as competitive or market-dominant, based on the Post Office’s
location. Customers must pay PO box fees quarterly, semiannually, or annually.

Post Office Box Billing Process

On the first of the month when a fee payment is due, the Postal Service places a notice
in the PO box notifying the customer that the payment is due. If the customer has not
paid the PO box fee by the 20th of the month, the Postal Service places a letter inside
the PO box reminding the customer that the payment is due. If the customer does not
pay the fee by the end of the month, the Postal Service blocks the PO box to prevent
the customer from accessing it. WebBATS automatically sends an email notice to those
customers who have provided a valid email address. If the customer has not paid the
fee after 10 days, the Postal Service closes the box and treats any mail and subsequent
mail addressed to the box as undeliverable. The Postal Service must change locks
immediately after it closes a PO box if the unit has a shortage of available PO boxes. If
there is no shortage of PO boxes, the Postal Service should take the necessary steps to
ensure that locks/combinations are changed within 48 days of closing the box. Once
this is done, the box can be rented to a new customer.

Web Box Activity Tracking System

Management can use WebBATS to post PO box payments and refunds; conduct Postal
Service Form 1093, Application for PO Box Service, searches; and generate more than
40 reports.15 The Postal Service must record all PO boxes in WebBATS to effectively
manage its inventory. Almost every single unit uses WebBATS to maintain its PO box
information. The Postal Service has updated WebBATS to enable integration with the
Point-of-Service System,16 automated postal centers,17 and the Post Office Box Online18
application for automatic posting of payments. WebBATS was integrated with AMS in
2009 to save workhours at the delivery unit and eliminate the need for separate entries
of identical PO box information. Adding and deleting PO boxes are now done through
AMS and fed to WebBATS. Box status changes are fed from WebBATS to AMS, and
those status changes are provided to mailers through existing products.


15
   Such reports include the Box Inventory report that shows all boxes recorded in WebBATS and their status; the
Closed on Hold report, which shows all the closed boxes at the unit; and the Payment Due Notification Labels report,
which prints notification labels for customers who have upcoming fee payments due.
16
   The electronic system used at retail facilities to record sales and payment transactions.
17
   Kiosks at PO retailers that accept payments and fees.
18
   Online application that allows customers to rent, renew or reserve a PO box.


                                                         10
Postal Service Management of Closed Post Office Boxes                           DP-AR-13-007



The headquarters WebBATS coordinator is responsible for the WebBATS system and
any associated software problems. Area and district WebBATS coordinators assist the
field whenever they have questions on how to complete tasks in WebBATS, such as
posting payments, adding or deleting PO boxes, and resolving any technical questions
they may have. District coordinators are also responsible for ensuring that annual PO
box reviews are completed by each unit within its district.

Annual Post Office Box Review

Annual PO box reviews consist of a unit comparing the statuses of PO boxes in
WebBATS to its actual status at the unit and the total number of PO boxes reported in
WebBATS to the actual number of PO boxes at the unit. Additionally, the unit must
determine whether any PO boxes require a lock or combination change, and if the unit
has overflow mail. Each unit supervisor or manager must perform and complete PO box
reviews annually by July 1. If the physical count of PO boxes does not match the
amount reported in WebBATS, units must contact the AMS group to ensure that PO box
amounts are correct by adding or deleting PO boxes from WebBATS. Any
discrepancies with closed and available boxes must be corrected as soon as possible to
prevent revenue loss.

Post Office Box Blue Pages

The Postal Service has Post Office Box Blue Pages that field, district, area, and
headquarters staff can use as a resource to help manage PO boxes. The Post Office
Blue Pages contain Standard Operating Procedures (SOP) that detail PO box
processes and are the most up-to-date criteria for staff to reference. Additionally, there
are several national WebBATS reports that staff can reference and use to identify
potential problems with PO boxes. These reports include:

   The Facilities with Broken or Closed Post Office Boxes but No Available Boxes
    report shows units that do not have PO boxes available for rent but have closed
    boxes that could have the locks changed and made available for rent.

   The Post Office Box Audit Review report shows whether units have completed their
    annual PO box review and whether there is a discrepancy between the physically
    counted PO boxes and the number reported in WebBATS.

Objective, Scope, and Methodology

The objective of our audit was to determine whether the Postal Service was effectively
using national PO box data to manage closed PO boxes. To accomplish our objective,
we reviewed handbooks, manuals, and SOPs to determine current policies and
procedures. We interviewed Postal Service employees to gain an understanding of their
roles and responsibilities in regard to the PO box process. We obtained and analyzed
WebBATS and PO box data in reports posted on the Post Office Box Blue Pages. We
reviewed closed PO boxes requiring lock changes at 26 judgmentally selected units



                                                  11
Postal Service Management of Closed Post Office Boxes                                                  DP-AR-13-007



agreed to by management,19 where PO box exceptions had been identified in prior
reports.

We conducted this performance audit from April 2012 through June 2013 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 20, 2013, and included their
comments where appropriate.

We assessed the reliability of WebBATS PO box data by interviewing postal officials
knowledgeable about the data and by tracing WebBATS data to physical PO boxes
during site visits. We determined that the data were sufficiently reliable for the purposes
of this report.

Prior Audit Coverage

The OIG issued a report titled Caller and Reserve Service Operations (Report Number
DP-AR-13-001, dated January 3, 2013) recommending the Postal Service evaluate the
feasibility of implementing an automated process to identify unassigned or inactive
caller and reserve addresses, update criteria, and provide adequate training for
necessary employees for caller and reserve service. We also recommended the Postal
Service ensure that districts collect all delinquent fees identified in the annual reviews
and our audit, require districts to review all caller service accounts, update annual caller
and reserve instructions, and provide system access to coordinators. Management
agreed to eight of nine OIG recommendations. The one recommendation not agreed to
was to provide area and district WebBATS coordinators with access to WebBATS so
they can effectively and efficiently provide support to the field and provide appropriate
headquarters personnel nationwide access so they can effectively and efficiently
support the WebBATS coordinators. Management disagreed with this recommendation
because WebBATS contains sensitive personally identifiable information that is
protected by the Privacy Act. Additionally, management stated that modifying WebBATS
in such a way would result in a significant expense.




19
  Because the sample size of a valid statistical sample of post offices with PO boxes would be too large to review,
management agreed to our approach to revisit audit sites from FYs 2009 and 2010 with prior PO box exceptions to
determine whether nationwide exceptions related to PO boxes exist.


                                                         12
Postal Service Management of Closed Post Office Boxes                                                    DP-AR-13-007



                             Appendix B: Monetary and Other Impacts

                                               Monetary Impacts

           Recommendation                      Impact Category                                Amount
                 2                      Revenue Loss20                                        $5,322,026

                                                  Other Impacts

          Recommendation                       Impact Category                                Amount
                3                       Revenue at Risk21                                     $7,088,757

Closed, Broken, and Unrecorded PO Boxes at Facilities With No Available Boxes for
Rent

To calculate the monetary impact, revenue loss, for closed, broken, and unrecorded
PO boxes at facilities with no available boxes for rent, we obtained the Facilities with
Broken or Closed Boxes and No Available Boxes report from the Post Office Box Blue
Pages on May 4, 2012. This report provides the total number of broken and closed
boxes by size and fee group at units where there are no boxes available for rent. From
this report, we determined there were 1,725 broken boxes and 21,235 closed boxes.
The Postal Service could repair and/or change the locks on these closed and broken
PO boxes to make them available for rent, which would provide an additional
$1.615 million in annual PO box revenue.

On May 7, 2012, we obtained the Post Office Box Data Review report from the Post
Office Box Blue Pages. This report is constructed using data from annual PO box
reviews completed by the Postal Service. As part of these reviews, units must compare
total PO boxes recorded in the WebBATS system to the number physically located at
the unit. This report provides data on the number of physical PO boxes not recorded in
WebBATS. In conjunction with the Facilities with Broken or Closed Boxes and No
Available Boxes report, we determined that 19,791 physical PO boxes were not
recorded in WebBATS at units with no available PO boxes. Because the Post Office
Box Data Review report only lists the total number of physical PO boxes not recorded in
WebBATS and does not provide details on the size of boxes or the fee group for the
unit, we assumed the ratio of size of boxes to total and fee groupings would be the
same as those derived from the Facilities with Broken or Closed Boxes and No
Available Boxes report. That report lists the size of the boxes and the fee group of the
unit. As a result, we calculated these boxes would have produced an additional


20
   Amount Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements or good business practices were lacking or not followed. May be recoverable
or unrecoverable and may apply to historical events or a future period (in the sense perceived future losses may be
prevented by the implementation of a recommendation).
21
   Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service).




                                                          13
Postal Service Management of Closed Post Office Boxes                         DP-AR-13-007



$1.39 million in annual PO box revenue if the Postal Service recorded them in
WebBATS and made them available for rent.

19,791 unrecorded PO boxes = 22,960 closed and broken PO boxes
            X                $1,615,630 annual PO box revenue

X = $1,392,636 annual revenue for PO boxes not recorded in WebBATS.

The total annual revenue loss for closed, broken, and unrecorded PO boxes at units
with no available boxes for rent is $3,008,266. We projected this amount for the next
2 years to be $9,024,799. We then obtained the Monthly Summary report for June 2012
from the Post Office Box Blue Pages, which shows the total number of active PO boxes,
as well as the total number of PO boxes nationwide. From this report, we determined
that 63 percent of PO boxes nationwide were rented. We then multiplied the $9,024,799
in revenue for closed, broken, and unrecorded PO boxes by the 63 percent to obtain a
more accurate estimate of how many of these boxes would be rented if the Postal
Service made them available for rent.

Additionally, we took into account management’s assertion that it costs $13-$15 to
change a lock in order to make a box available for rent. As a result, the audit team
calculated the total monetary impact, revenue loss, attributed to closed, broken, and
unrecorded PO boxes at facilities with no available boxes for rent to be $5,322,026.




                                                  14
Postal Service Management of Closed Post Office Boxes                           DP-AR-13-007



             Appendix C: Statistical Sample and Projections for Review of
                            Unblocked Post Office Boxes

Purpose of Sampling

The objective of our audit was to determine whether the Postal Service was effectively
using national PO box data to manage closed PO boxes. In support of this objective, the
audit team employed a variable sample of post offices with closed PO boxes. The
sample design allows statistical projection of the annual revenue for unblocked closed
PO boxes. This projection was used to estimate revenue at risk to the Postal Service for
unblocked closed PO boxes that customers can still access without paying for PO box
services.

Definition of Audit Universe

We obtained the WebBATS Facilities With Boxes Requiring Lock Change report from
the Post Office Box Blue Pages on April 27, 2012. This report provides the total number
of PO boxes at each facility that requires a lock change. From this report, we
determined there were 26,421 facilities with PO boxes requiring a lock change. During
2008 and 2009, the OIG found unblocked, closed PO boxes at 15 percent of the
statistically selected sites reviewed. Therefore, we estimate that 4,026 of these sites
have exceptions related to unblocked closed PO boxes. These sites comprised our
sampling universe.

Sample Design

We judgmentally selected 26 sites, agreed to by Postal Service management, to review
PO boxes requiring lock changes. However, these 26 sites were originally randomly
selected for review during prior audits in 2008 and 2009.

There were 1,966 PO boxes requiring a lock change at the 26 selected sites. We
reviewed each box to determine whether it was blocked to prevent customer access.
We determined that 404 of the 1,966 PO boxes requiring a lock change reviewed were
not blocked.

Because the WebBATS Facilities With Boxes Requiring Lock Change report only lists
the total number of PO boxes requiring lock change and does not provide details on the
size of boxes or the fee group for the unit, we assumed the ratio of size of boxes to total
and fee groupings would be the same as the ones derived from the Facilities with
Broken or Closed Boxes and No Available Boxes report. That report lists the size of the
closed boxes and the fee group of the unit.




                                                  15
Postal Service Management of Closed Post Office Boxes                        DP-AR-13-007



Sample Results and Cost Savings Calculations

We are 95 percent confident the annual revenue at risk for unblocked closed PO boxes
requiring a lock change is between $1,972,368 and $6,830,772 and determined the
point estimate to be $4,401,570. The relative precision achieved was +-55.19 percent.
Because the relative precision achieved was so great, the lower bound estimate of
$2,362,919 of the one-sided 95 percent confidence level was then used in subsequent
revenue at risk calculations.

As a result, we are 95 percent confident that the annual revenue at risk for unblocked
PO boxes requiring lock changes is at least $2,362,919. We projected this amount for
the next 2 years and calculated the total other impact, revenue at risk, attributed to
unblocked PO boxes requiring lock changes to be $7,088,757.




                                                  16
Postal Service Management of Closed Post Office Boxes         DP-AR-13-007



                          Appendix D: Management's Comments




                                                  17
Postal Service Management of Closed Post Office Boxes   DP-AR-13-007




                                                  18
